                            U.S. DEPARTMENT OF EDUCATION 

                                  OFFICE OF INSPECTOR GENERAL 

                                        32 Old Slip, 26th Floor 

                                           Financial Square

                                      New York, New York 10005 

                                 Telephone (646) 428-3860 Fax (646) 428-3868




                                                September 14, 2005

                                                                                                Control Number
                                                                                                ED-OIG/A02-F0006


Lucille E. Davy
Acting Commissioner of Education
New Jersey Department of Education
100 River View Plaza
P.O. Box 500
Trenton, NJ 08625

Dear Ms. Davy:

This Final Audit Report presents the results of our audit of the New Jersey Department of
Education’s (NJDOE) compliance with Title I, Part A (Title I), of the Elementary and Secondary
Education Act of 1965 (ESEA), as amended by the No Child Left Behind Act of 2001, Public
School Choice and Supplemental Educational Services (SES) provisions for the 2004-2005
school year that began July 1, 2004. The objectives of our audit were to determine if (1) NJDOE
had an adequate process in place to review local educational agency (LEA) and school
compliance with Adequate Yearly Progress (AYP), Public School Choice, and SES provisions of
ESEA; (2) LEAs provided to students attending schools identified for improvement (failed AYP
two consecutive years) the option of attending another public school; and (3) LEAs provided
SES to students attending schools that failed to make AYP while identified for improvement,
corrective action or restructuring.1 To achieve these objectives, we reviewed NJDOE and five
judgmentally selected LEAs with schools identified for improvement, corrective action, or
restructuring. 2

In its August 18, 2005 response to our draft report, NJDOE concurred with our findings and
recommendations. NJDOE stated in its response that it has already begun to take steps to correct
the deficiencies cited in the audit report. NJDOE’s response is included as Attachment 1 to the
report. Because of the voluminous number of attachments included in NJDOE’s comments on

1
  To accomplish our objectives, we reviewed compliance with selected provisions of ESEA. See Objectives, Scope, 

and Methodology section of this report for more detail. 

2
  We reviewed Upper Deerfield Township (Upper Deerfield), Vineland City (Vineland), Plainfield City (Plainfield), 

Newark City (Newark), and Camden City (Camden).



         Our mission is to ensure access to education and to promote educational excellence throughout the Nation.
Audit of NJDOE’s Compliance with                                                     Final Report
Public School Choice and SES Provisions                                              ED-OIG A02-F0006
the draft report, we have not included them in this enclosure. Copies of the attachments are
available upon request.


                                           AUDIT RESULTS

Our audit disclosed that, for the 2004-2005 school year, NJDOE did not have an adequate
process in place to review LEAs’ compliance with AYP, Public School Choice, and SES.
NJDOE also did not provide sufficient data for LEAs to timely determine AYP for schools, and
had an inadequate process to timely monitor approved SES providers. As a result of NJDOE’s
inadequate process, all five LEAs reviewed did not comply with Public School Choice and SES
provisions of ESEA. However, we determined that the LEAs reviewed provided the option of
school choice for students attending schools identified for improvement, when it had another
school for students to transfer, and generally provided SES to students.

Finding 1 – NJDOE Did Not Have an Adequate Process to Review LEAs for Compliance
            with ESEA Public School Choice and SES Provisions

NJDOE did not have an adequate process to annually review the progress of each LEA’s
compliance with Public School Choice and SES provisions of the ESEA. NJDOE officials
indicated that, before approving each Title I application, NJDOE personnel reviewed sections
that listed (1) schools required to offer school choice and SES, and (2) funds budgeted for
schools in need of improvement. However, for the 2004-2005 school year, the process was not
adequate to determine whether all LEAs actually offered, timely and properly, school choice and
SES to all eligible students. As a result, all five New Jersey LEAs we reviewed did not comply
with requirements for providing parental notification letters of both school choice and SES
options, and one LEA transferred students from schools identified for improvement to other
schools identified for improvement.

ESEA § 1116 (c)(1)(A) requires a state to annually review the progress of each LEA receiving
Title I funds to determine if each LEA is carrying out its responsibilities under ESEA.3

Had NJDOE reviewed LEAs as required by ESEA, it could have reduced the risk of the
following deficiencies occurring at New Jersey LEAs.

Five LEAs Had School Choice Notification Letter Deficiencies
All five LEAs reviewed did not comply with Public School Choice provisions of ESEA. Two
LEAs did not send school choice parental notification letters (Upper Deerfield and Vineland),
two LEAs (Newark and Camden) sent timely but deficient letters, and one LEA (Plainfield) sent
late and deficient letters.

    • 	 One LEA (Plainfield) mailed notifications to parents of eligible students at the
        elementary schools that were in need of improvement, but not to parents of students
        attending the middle schools also identified for improvement.

3
 LEA responsibilities under ESEA § 1116 are discussed in detail later in this finding and the BACKGROUND
section of this report. All regulatory citations are as of July 1, 2004.


                                                     2
Audit of NJDOE’s Compliance with                                                               Final Report
Public School Choice and SES Provisions                                                        ED-OIG A02-F0006
    • 	 Two LEAs (Plainfield and Camden) did not send notification letters for all of its schools
        identified for improvement. Plainfield did not mail letters to parents of students attending
        one of its elementary schools that was required to offer school choice.4 Camden did not
        send notification letters for one of its schools required to offer school choice.
    • 	 One LEA (Newark) sent notification to parents stating their child’s schools “may be”
        eligible for school choice, but did not follow up with any determination of actual school
        status.
    • 	 One LEA (Camden) did not provide school choice information directly to parents through
        such means as regular mail as required by 34 C.F.R. § 200.36 (c). Camden delivered the
        notification letters to the principals of each school to be distributed to the children on the
        first day of school. The students were responsible for giving the notification to their
        parents.
    • 	 Two LEAs (Newark and Camden) did not identify schools to which a student may
        transfer. However, Camden did enter into a cooperative agreement that allowed
        elementary students to transfer to a choice school outside the LEA. In this instance,
        school choice letters listed the choice option school only to the elementary schools in
        improvement.
    • 	 Two LEAs (Newark and Camden) provided no information on the academic achievement
        of the schools to which a student may transfer, or a comparison to the student’s current
        school.
    • 	 Three LEAs (Plainfield, Newark, and Camden) did not identify that transportation would
        be provided for students exercising school choice. Camden, however, did identify the
        transportation provision in their school choice letter to the elementary school identified in
        their cooperative agreement.
    • 	 One LEA (Plainfield) provided the notification after the first day of school. Plainfield’s
        letters, dated January 10, 2005, were sent more than three months after the LEA was
        notified by NJDOE of its schools’ status.

By not including this information in school choice notification letters, the three LEAs did not
comply with ESEA § 1116 (b)(6) and 34 C.F.R. § 200.37, which list the required minimum
information for school choice notification letters.5

Both Upper Deerfield and Vineland also did not comply with ESEA § 1116 (b)(6) and 34 C.F.R.
§ 200.37 requirements. Upper Deerfield’s only elementary school was required to offer school
choice. Because Upper Deerfield did not have another elementary school to which students
could transfer, and could not enter into a cooperative agreement with another LEA to accept its
students, Upper Deerfield only offered SES. Vineland did not notify parents for the 2004-2005
school year, but instead relied on its prior year choice notification letter, dated November 2003.
Both Upper Deerfield and Vineland did not provide a school choice parental notification letter
for the 2004-2005 school year to explain (1) what the identification of a school in improvement
means and the reasons for it, (2) how the school compares in terms of academic achievement to


4
  Plainfield listed this school as a school choice option for other students to transfer; however, only one student

opted to transfer into this school. 

5
  For a detailed description of criteria related to school choice and SES parental notification letters, see the 

BACKGROUND section of this report. 



                                                           3
Audit of NJDOE’s Compliance with                                                         Final Report
Public School Choice and SES Provisions                                                  ED-OIG A02-F0006
other schools served by NJDOE, and (3) what the school identified for improvement is doing to
address the problem of low achievement.

Because the five LEAs did not provide a school choice parental notification letter or include the
required minimum information in letters, parents were not fully informed about the status of their
children’s schools. As a result, parents could not make a fully informed decision whether to
transfer their children from a school identified for improvement. We reviewed the Sample
Parent Letter published on the NJDOE website, and found deficiencies such as a lack of (1) how
the school compares in terms of academic achievement to other schools served by the LEA and
NJDOE, and (2) an explanation of what the school identified for improvement is doing to
address the problem of low achievement.

Five LEAs Had SES Notification Letter Deficiencies
All five LEAs reviewed did not comply with SES provisions of ESEA.
• 	 One LEA (Plainfield) did not provide parental notification of SES for all eligible students as
    required by ESEA § 1116 (e)(2)(A) and 34 C.F.R. § 200.37. Plainfield only provided SES
    parental notification letters to selected students at its two middle schools and did not provide
    parent notification letters for its six elementary schools that were required to offer SES.
• 	 Two LEAs (Plainfield and Camden) did not provide SES information directly to parents
    through such means as regular mail as required by 34 C.F.R. § 200.36 (c). These LEAs
    delivered the notification letters to the principals of each school to be distributed to the
    students. The students were responsible for giving the notification to their parents.
• 	 One LEA (Newark) mailed a preliminary “heads up” letter to parents stating their child’s
    school “may be” eligible for SES. The “heads up” letter was sent to the parents of all
    students regardless of their Title I status. Newark did not follow up with any determination
    of actual school status.
• 	 Four LEAs (Upper Deerfield, Vineland, Newark, and Camden) did not include the minimum
    required information in SES parental notification letters as required by ESEA § 1116
    (e)(2)(A) and 34 C.F.R. § 200.37. All four LEAs reviewed for SES did not provide (1) a
    description of the services, and (2) qualifications and evidence of effectiveness for each
    provider from which a parent could select. Upper Deerfield, and Camden did not identify the
    approved service providers in its geographic location. Additionally, Camden only provided
    its information in English, thereby not considering the additional language needs of the
    parents.6

The LEAs did not (1) provide SES parental notification for all eligible students, (2) provide
information directly to parents, and/or (3) include the minimum required information.
Consequently, some parents did not have all the information needed to make a fully informed
decision regarding SES. Two LEAs (Newark and Camden) believed it was sufficient to only
provide information to parents through other methods such as meetings. The other three LEAs
(Upper Deerfield, Vineland, and Plainfield) were not aware of their responsibility for providing
this information to parents, because NJDOE did not provide adequate guidance to LEAs
regarding parental notification of SES.

6
  According to 34 C.F.R. § 200.36 (b), communication should be in an understandable format and in a language, to
the extent practicable, the parents can understand.


                                                        4
Audit of NJDOE’s Compliance with                                                         Final Report
Public School Choice and SES Provisions                                                  ED-OIG A02-F0006
One LEA Transferred Students to Schools Identified for Improvement
Based on the Vineland schools that we sampled, 47 of 52 students that exercised school choice
transferred from schools identified for improvement to other schools identified for improvement.
In addition, Vineland transferred 6 students from schools making AYP to schools identified for
improvement.

ESEA § 1116 (b)(1)(E) requires that, in the case of a school identified for school improvement,
the LEA shall provide all students enrolled in the school with the option to transfer to another
public school served by the LEA and not identified for improvement, unless such an option is
prohibited by state law.

By allowing students to transfer to other schools also identified for improvement and not
notifying parents of each new school's improvement status, Vineland did not provide complete
information to parents regarding school choice. Parents may have had the false impression that
they were transferring their child to a school that met AYP standards.

Monitoring Policies and Procedures Needed Beyond the 2004-2005 School Year
NJDOE implemented the necessary ESEA review requirements for the 2004-2005 school year by
designating the County Superintendent Offices as the monitoring oversight of ESEA at the LEA
levels.7 However, representatives of the County Superintendent Offices were not given written
policies or procedures on monitoring for compliance with Public School Choice and SES
provisions.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education, in
conjunction with the Assistant Deputy Secretary for Innovation and Improvement:

1.1 	   Require NJDOE to revise the sample letters it provides to LEAs and instruct the LEAs to
        discontinue using any previously provided sample letters. The sample school choice
        letter should identify the schools to which a child may transfer and provide an
        explanation of how the school compares in terms of academic achievement to other
        schools served by NJDOE. The sample SES letter should describe the qualifications and
        evidence of effectiveness for each provider.

1.2 	   Require NJDOE to review the progress of each LEA to determine if each LEA is carrying
        out its responsibilities under provisions of ESEA and the regulations related to (1) school
        choice and SES parental notification letters, and (2) offering school choice options that
        include schools not identified for school improvement.




7
 County Superintendents are responsible for ensuring compliance with State law and rendering supervisory services
for schools under its jurisdiction.


                                                        5
Audit of NJDOE’s Compliance with                                              Final Report
Public School Choice and SES Provisions                                       ED-OIG A02-F0006
Finding 2 – NJDOE Did Not Provide Sufficient Information for LEAs to Make the AYP
            Determinations before the Beginning of the 2004-2005 School Year

NJDOE administered the New Jersey statewide assessment program during March 2004. The
initial results of the assessment were provided to the LEAs in June 2004. 34 C.F.R. § 200.49
(e)(1) requires that the results of academic assessments are available to LEAs in time to allow for
them to make AYP determinations. 34 C.F.R. § 200.8 (a)(2)(ii) states that academic assessment
results must be in an understandable and uniform format. Although the assessment results were
provided timely, it was not in a format for the LEAs to easily determine the AYP status of its
schools.

One of the LEAs reviewed was able to identify its schools in improvement using the initial data.
This LEA had only three schools, which made it easier to determine AYP. The larger LEAs
encountered problems using the initial results because of the LEAs’ higher student enrollment
population and the number of schools within the LEAs’ district. These LEAs waited for NJDOE
to issue written confirmation stating its AYP determinations. NJDOE issued its preliminary
AYP determinations to the LEAs on September 24, 2004, after the start of the school year, which
began September 7, 2004. As of May 17, 2005, NJDOE had not issued final AYP
determinations to the LEAs. Since NJDOE did not have an adequate process in place to provide
clear state assessment results to the LEAs prior to the 2004-2005 school year, school choice and
SES options were not timely implemented.

Recommendation

We recommend that the Assistant Secretary for Elementary and Secondary Education:

2.1 	   Require NJDOE to implement an adequate process to make available state assessment
        results in an understandable and uniform format.

Finding 3 – NJDOE Did Not Have an Adequate Process to Timely Monitor Approved SES
            Providers

NJDOE did not perform any monitoring of the approved SES providers to determine the
adequacy of services for the 2004-2005 school year. During our audit, NJDOE was in the
process of evaluating the 2003-2004 SES providers. Although monitoring procedures were
established, they were not timely implemented.

States are required under ESEA § 1116 (e)(4)(D) to monitor the quality and effectiveness of
approved SES providers and withdraw approval from providers that fail to provide valuable
services for two consecutive years.

Because NJDOE did not timely monitor SES providers, NJDOE cannot be assured of the quality
and effectiveness of the services provided by approved SES providers during the 2003-2004 and
2004-2005 school years for the next (2005-2006) school year.




                                                6

Audit of NJDOE’s Compliance with                                                      Final Report
Public School Choice and SES Provisions                                               ED-OIG A02-F0006
Recommendation

We recommend that the Assistant Secretary for Elementary and Secondary Education, in
conjunction with the Assistant Deputy Secretary for Innovation and Improvement:

3.1 	      Require NJDOE to implement procedures to timely perform monitoring activities of
           approved SES providers.


                                                 BACKGROUND

Title I, Part A of the ESEA, as amended by the No Child Left Behind Act of 2001, significantly
increased the choices available to the parents of students attending Title I schools that fail to
meet state standards, including immediate relief, beginning with the 2002-2003 school year, for
students in schools that were previously identified for improvement or corrective action under
the 1994 reauthorization of ESEA. LEAs must offer all students attending schools identified for
improvement, corrective action, or restructuring the choice to attend a public school not
identified for improvement, corrective action, or restructuring, which may include a public
charter school, within the LEA.8 The LEA must provide students transportation to the new
school and append, at a minimum, an amount equal to five percent (up to as much as 20 percent)
of its Title I funds for this purpose, if needed.

A school that fails to make AYP while being identified for improvement, corrective action, or
restructuring must offer SES to low-income students. SES providers must be approved by the
state and offer services tailored to help participating students meet challenging state academic
standards. To help ensure that LEAs offer meaningful choices, ESEA requires an LEA to spend
an amount equal to 20 percent of its Title I allocation to provide choice-related transportation
and SES to eligible students, unless a lesser amount is needed to satisfy all demand.

ESEA § 1116 (c)(1)(A) requires states to review LEAs for compliance with the school choice
and SES provisions of ESEA. ESEA § 1116 (b) and (e) and 34 C.F.R. § 200.37 outline
requirements for school choice and SES parental notification letters. For school choice parental
notification, ESEA § 1116 (b)(6) and 34 C.F.R. § 200.37 require that an LEA promptly provide
parents of each student enrolled in a school identified for school improvement with notice that
includes, among other things, (1) an explanation of how the school compares in terms of
academic achievement to other schools served by the LEA and state educational agency; (2) an
explanation of the parents’ option to transfer their child to another public school, which may
include charter schools, or obtain SES; (3) identification of the schools to which a child may
transfer and information on the academic achievement of those schools; and (4) notice that the
LEA will provide or pay for transportation for the student to another public school.

For SES parental notification, ESEA § 1116 (e)(2)(A) and 34 C.F.R. § 200.37 require the LEA to
provide, at a minimum, annual notice to parents of (1) the availability of services and how
parents can obtain the services for their child; (2) the identity of approved providers within or
near the LEA; and (3) a brief description of the services, qualifications, and demonstrated
8
    A school is identified for improvement after failing AYP two consecutive years.


                                                           7
Audit of NJDOE’s Compliance with                                                Final Report
Public School Choice and SES Provisions                                         ED-OIG A02-F0006
effectiveness of each provider. According to 34 C.F.R. § 200.36 (c), the state, LEA, or school is
required to provide information to parents directly, through such means as regular mail. ESEA §
1116 (e)(2)(C) requires the LEA to apply fair and equitable procedures for serving students if the
number of spaces at approved providers is not sufficient to serve all eligible students. ESEA §
1116 (b)(10)(C) requires the LEA to give priority to the lowest achieving eligible students.

NJDOE allocated $252,876,516 in Title I funds to the LEAs for the 2004-2005 school year.
NJDOE allocated Title I funds during this period to 498 of its 668 LEAs. For the 2004-2005
school year, 515 schools in 186 LEAs were identified as needing improvement -- 348 schools
were in the first year of improvement, 64 schools were in the second year of improvement, and
103 schools were in the third year of improvement. For the 5 LEAs we visited during our audit,
we randomly selected 25 schools identified for improvement to review for school choice and
SES. For the schools reviewed, 62 of 10,944 (0.6 percent) eligible students at schools exercised
their right to school choice. In regards to SES, 4 of the LEAs we visited during our audit had
1,126 of 6,084 (18.5 percent) eligible students at schools enrolled in SES. One LEA (Plainfield)
did not offer SES to all eligible students; instead it offered SES to selective lowest achieving
Title I students at the middle schools.


                       OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine if, for the 2004-2005 school year, (1) NJDOE had
an adequate process in place to review LEA and school compliance with the AYP, Public School
Choice, and SES provisions of ESEA; (2) LEAs provided to students attending schools identified
for improvement (failed AYP two consecutive years) the option of attending another public
school; and (3) LEAs provided SES to students attending schools that failed to make AYP while
identified for improvement, corrective action, or restructuring. Our examination of NJDOE’s
process for reviewing LEA and school compliance with the AYP provisions focused on the
timeliness of providing state assessment results and AYP determinations to LEAs.

To achieve our objectives, we:

1. 	 Reviewed documents provided by NJDOE, including the NJDOE Organization Chart;
     documents related to compliance with ESEA provisions related to AYP, school choice, and
     SES, the identification of persistently dangerous schools, identification of districts in need of
     improvement, the State of New Jersey Consolidated State Application Accountability
     Workbook; the Consolidated Formula Subgrant FY 2005 Reference Manual, and the NJDOE
     Toolkit for Schools, Districts, and Providers to Implement Supplemental Educational
     Services.

2. 	 Reviewed, for compliance with Public School Choice and SES provisions of ESEA, 5
     judgmentally selected LEAs with schools in improvement from a universe of the 186 New
     Jersey LEAs that had schools identified for improvement for the 2004-2005 school year.
     Based on total student enrollment and the amount of Title 1 funds allocated, we selected two
     large (Newark and Camden), two medium (Vineland and Plainfield), and one small (Upper
     Deerfield) LEA. We defined a large LEA as one with student enrollment of 10,000 or more,



                                                  8

Audit of NJDOE’s Compliance with                                               Final Report
Public School Choice and SES Provisions                                        ED-OIG A02-F0006
   a medium LEA with an enrollment of 1,000 through 9,999, and a small LEA with an
   enrollment of 999 or less.

3. 	 Reviewed documents from the five selected LEAs. The documentation related to the LEAs’
     compliance with the Public School Choice and SES provisions of ESEA and included (a)
     school choice and SES parental notification letters (b) documentation related to the number
     of students eligible for and participating in school choice and SES; and (c) documentation
     related to Title 1 funding and budget for school choice and SES.

4. Reviewed the New Jersey Comprehensive Annual Financial Report, Fiscal Year Ended
   June 30, 2003, performed by the New Jersey State Office of Legislative Services.

5. 	 Interviewed officials from NJDOE and the five LEAs reviewed.

Our review of the school choice and SES parental notification letters focused on selected
provisions of ESEA. Specifically, for the school choice parental notification letter, we
determined: (1) whether parents were notified in a timely manner; and (2) whether the notice, at
a minimum, (a) informed parents that their child was eligible to attend another public school due
to the identification of the current school as in need of improvement; (b) identified each public
school, which may include charter schools, that the parent can select; (c) explained how the
school compares in terms of academic achievement to other schools served by the LEA and
NJDOE; (d) included information on the academic achievement of the schools that the parent
may select; and (e) clearly stated that the LEA will provide, or pay for, transportation for the
student.

For the SES parental notification letter, we determined: (1) whether parents were notified of SES
and given comprehensive, easy-to-understand information about SES; and (2) whether the
notice, at a minimum, (a) identified each approved service provider within the LEA, in its
general geographic location, or accessible through technology such as distance learning; (b)
described the services, qualifications and evidence of effectiveness for each provider; (c)
described the procedures and timelines that parents must follow in selecting a provider to serve
their child; and (d) was easily understandable, in a uniform format, and, to the extent practicable,
in a language the parents can understand. If the LEA had insufficient funds to serve all students
eligible to receive services, we also determined whether the SES parental notification letter
included information on how the LEA will set priorities in order to determine which eligible
students receive services.

As part of our audit, we also gained an understanding of NJDOE’s internal control over LEAs’
compliance with Public School Choice and SES provisions of ESEA. Though we did not assess
the adequacy of NJDOE’s internal control, our compliance testing at five LEAs disclosed
instances of non-compliance that might have been caused, in part, by weaknesses in NJDOE’s
system of internal control. These weaknesses are related to monitoring LEAs to determine
whether (1) LEAs offered school choice to all eligible students, (2) school choice and SES
parental notification letters were timely and included all required information, (3) LEAs offered
SES to all eligible students and only to eligible students, (4) LEAs allowed parents to select a
SES provider from all state-approved providers serving their respective geographic areas. These



                                                 9

Audit of NJDOE’s Compliance with                                             Final Report
Public School Choice and SES Provisions                                      ED-OIG A02-F0006
weaknesses and instances of non-compliance are discussed in the AUDIT RESULTS section of
this report.

We conducted our fieldwork at NJDOE offices and the five LEAs’ offices from December 2004
through April 2005. We discussed the results of our audit with NJDOE officials on May 17,
2005. Our audit was performed in accordance with generally accepted governmental auditing
standards appropriate to the scope of our review described above.


                               ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective actions to be taken will be made by the appropriate Department
officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
officials who will consider them before taking final Department action on this audit.

                              Henry L. Johnson
                              Assistant Secretary
                              Office of Elementary and Secondary Education
                              U.S. Department of Education
                              Federal Building No. 6, Room 3W315
                              400 Maryland Avenue, SW
                              Washington, D.C. 20202

                              Nina S. Rees
                              Assistant Deputy Secretary
                              Office of Innovation and Improvement
                              U.S. Department of Education
                              Federal Building No. 6, Room 4W317
                              400 Maryland Avenue, SW
                              Washington, D.C. 20202

It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.




                                               10 

Audit of NJDOE’s Compliance with                                             Final Report
Public School Choice and SES Provisions                                      ED-OIG A02-F0006
In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.




                                             Sincerely,


                                                      /s/

                                             Daniel P. Schultz
                                             Regional Inspector General for Audit




                                               11 

Audit of NJDOE’s Compliance with                                                            Final Report
Public School Choice and SES Provisions                                                     ED-OIG A02-F0006
                                       Attachment 1





                                                  To       "1''''2'''>'<,
                                                                                                    "
                                                       Ausu.,1 IlL 2005




             \\r. Dan iel P. Schultz. R~gJonallnspector    G~n~r<ll
             LnHed States Departmell! of EducatIOn
             Ofiicc of lnspo:ctor General
             32 Old Slip, 26'" Floor Fman..:ial Square
             :\-c\\ York, NY 10005

             Dear Mr , Schultz:

                              The Ke\\ k"'e~ Department of Educallon (:"JDOE) was pleased to host
             your Aud i! Team beginnlllg December 2004 and endmg ,",pril 2005 for the rnonllort:1g
             of the state 's admlmstr<lIlOn of the Title I school chotce and supplemental educatIOnal
             sernces programs_ \\'e ha\e cJrefully read the draft report (Control l'< umbrr ED ­
             OIG A02- FOOO6) I~>ucd b~ Ihe hhpator Gen"ral thai prU\ ".led f"edbat~ 10 th e )\JOOE
             on Ine 1JSDF's on- Sll~ re\iew of sekcted No Child L.:ri Bdlind (:--CLll) pro\IS10nS,
             'Inc fe\iew included the :\JDOE process and visi ts wllh Ihe dtstricts

                            We have found this monitoring proce;s to be a \-aluable learning
             nperience ~nd an opportunity to help guide us to impro'-e the state"s admin istr<lllon oi
             the Tnk I program. Staffa; Ihc :\JDOE halT bccll 1\ orkin!! di1igentl~ to nnpicmem the
             compln n:quirem"nb ,If Till~ I und er !\CLR We abo re"ogni/l' thai \\l' havl' ons,)ing
             challenges 3nd more work to do_

                              Your team Cited three findings III liS report_ The ;\'JOOE has alrcad~
             ocgun addrcsslllg some pom\;; mentioned m these !in.-!mg.;. and is in thc proc~~, 01
             ':Ofn'cting all ddicienci~, CI!~d. The '1JDOE con(up.> with all the ,pecific finding, and
             recollUllendalloru; speCified III the draft audll repon. The enclosed Response to Fllldlll£;,
             pro\·ides detail on the ~JDOE"s corrective actions.




                                                          1

Audit of NJDOE’s Compliance with                                                                 Final Report
Public School Choice and SES Provisions                                                          ED-OIG A02-F0006
                                       Attachment 1





             Mr, Danici p, Schultz
             Page 2
             August 18,2005


                             The NJDOE appreciates the work and the report generated by the
             Inspector General's Audit Team and welcomes its feedback on our responsc. We wish
             to affinn our commitment to educating all New Jersey children 10 high standards and
             ensuring comp liance with the requirements of Title L We loo k forward to continu ing 10
             assist the state's districts and schools as they implement school choice options and
             supplementa l cducationalserncts programs.


                                                             Sincerely,



                                                             i<"J~.Q. R~7
                                                             Richard Rosenberg
                                                             Acting CommissIOner

             RRlIBISO : Vl'SDE IRspe<to£ Gm=l ... ..1" !<lOHn,;p<:CO", """""I Co,"" L<ttn.d<><
             Enclosure
             c:     William L. Libr~ra
                    J. Michael Rush
                    Senior Staff
                    Anne Corwell
                    AIUlel1C Castiglior,e
                    Raymond Montgomery
                    Suz~n ne Ochse
                    Diane Schonyers




                                                                  2

Audit of NJDOE’s Compliance with                                                            Final Report
Public School Choice and SES Provisions                                                     ED-OIG A02-F0006
                                       Attachment 1





               Office of Inspector General - Au dit of :'>O J Ll O E's Compl ia nce " ith Public School
                                         Ch oice aud Sl:S Provisions
                                    Control ~-umber ED-O IG/A02- F0006

                                        -;JDO[ Respnnse tll the Find ings


             FlSDIS(; 1:
             .\JDOI:: Did NOllla"e an Adequate Pro('f'SS to Review LEAs/or Compliance ",ilh £51:.4.
             Puhlic Sch ool Choicc and SE5 Pron'siolls

             Reco"'m elldlllian:
             1_ 1  Require I\~JD()E /0 re,'ise fhe sample leiters if pro'-ides 10 LEAs and inslmer rhe
                   LFAs /0 disemJlimw using am- pre,-iousb,- prOl'lded sample l!?Iters, The sample
                   school choice leiter should idemif)- Ihe .,~'hools /0 "hic;' a child may trallsfer and
                   prOl-ide a/l explanation of how Ihe school compures in tcrms Of academic
                   achiewmenllo OIher schools served by the NJDOE n,e _mmple SES feller !"lIould
                   ,kscribe Ihe q,wlijicmions alld evidence of ejJeClil'ene5s for each provider_

             :\"./OO E Re~p"nse :
             On July 2'>, 2005. districts "ere notified of their school's AYP results and single
             accountabil ity stat llS for the 2005-2006 schoo l year, In this kller. LEAs were advised 10
             comply with the p;lrental nOliikation requirements for schoo! choice and SES. Following
             is an excerpt from theJu!;: 29. 2005. lener:

                     "Under NCLB. schools that missed A YP for one year, that is, for 2004 or
                     2005. are placcd into '-early warning" status, Schools lha\ di d nOl make
                     AYP for NO consccut;\C years in the Same ,ont"nt area are ident ified as
                     "<;ehools in need of improvement." Title I schools must imp lemem
                     fed<.>ral sa nClion~ in the 2005-2006 school year. There are parental
                     notifi cation requiremem5 for ~chO()l , in need of improvcment, Parcms
                     mu st be notified prior 10 Ihe start of schooL Sample !cuers arc posted on
                     the NJD OE Title ! Web site               More information re garding the
                     requirements for schools in need of improvemem is also posled on the
                     Tille I Web sile.'-

             A\\acbm en t A sho\\s Ihe information POSled on the "JOOE Web site relative to parental
             notification, These general instructions ac company five sample letters. The sample
             lel1eN include spec ific language r~ lali\'e to >chool choic~, the schools 10 whi ch a child
             may transfer, and information on the academic ac hie\'ement of the e,hoic c <;ehool(s). With
             regard 10 SES. the sample letters include information about the qualifi cations and
             evidence o f efrecli, eness for each provider.

             Trainings to LEAs and '(JOOE field ,ta ffrelati \'e 10 the requirement s for school choice
             and SES have heen occurring, The annual SES forums for districts were hcld on July 12
             and July 15, 2005. An additional session was h~ l d for Abbou staff an AUSllst 9, 1005.




                                                       3

Audit of NJDOE’s Compliance with                                                            Final Report
Public School Choice and SES Provisions                                                     ED-OIG A02-F0006
                                       Attachment 1





             The annual SES provider forom was held on July 19. 2005. The J\'CLB Consolidated
             grant trainings were held for the i\JDOE Ficid Staff (County and Abbot! Offices) on
             August 4, 2005. The :--'100£ field starr in tum provide training sessions to the LEAs.
             These sessions occured during the months of June. July, and early August 2005. At these
             scssions, districts were infonned to disconti nue using any prior parental llotitkation
             letters and to lise the sampks that are posted on the 1\100E Web site. Hard copies of
             these sample letters were distributed.

             There are also opportunities for ongoing trai nings for LEAs and schools. The 1\ClB
             School Improvement Training ;--lodu1c addresscs school choice and SES. The module is
             postcd on the NJDOE web site at: www.nj .gov/njdcdlitlcl tech module3/.

             Recommendlltioll ;
             1.1  Reqllire NJDOE 10 rtl'ieli the progress of each LEA to determill~ If each LEA is
                  carl)'illg Old irs respensibili/ies IInder provisiollS of ESEA allii the regllicmons
                  relared to (I) school chOice alld SES parental notification leiters alld (1) offeri~g
                  school choice oplirms IhUl illc/urie .I·chools 1I0t identifiedfor school imprO\'emem.

             XJDOE Response:
             The NJOOE has implemented several mechanisms for tracking districts' implcmentation
             of the school choicc and SES options under NCLB.

             Grall! Application: Districts apply for their federall'CLB entitlement gnmts using an on­
             line, Web-enahled grant application called EWEG. This system requires each district 10
             enter the number of transferring SlUdCt1ts to a prcpopulated list of the district's schools.
             All edit check in the EWEG systcm prevcnts thc district from assigning students to
             schools that are idenrified in need of improvement or pcrsistcntly dangerous.

             The NCLB Consolidated Application req uires the submission of copies of the parental
             notification letters sent by the district/school. ;-.rIDOE field starr are responsible for
             reviewing thesc leiters to ensure content and timely notification, using a standardized
             revie\\ guide. The rcvie\\ guide also includes all the required elements of the notification
             letters. The rev iew cccurs prior to thc approval of the consolidated application. Included
             in the application is a school choice capacity checklist. Districts must indicate that they
             hale considered all options to provide capacity for choicc. The checklist reinforces
             USDE policy, which was reiterated to distri cts in a :\'JDOE policy lettcr and posted on
             the NJDOE Web site (sec Altachmenl B).

             Staff from the Title I omce arc responsib le for a random review of LEA compliance I',ith
             the parental notificllion leller contcnts and the timely notification. This rel'iey, is
             ongoing. Technical assistance and guidance arc provided as needed on an individual basis
             to district/schools by the 1\IDOE field Starr and Title I progmm staff.

             :-.1onitoring: NJ DOE field staff are responsi ble for conducting annual moni toring of high
             risk districts. Review of compliance with the requirements of school choice and SES are




                                                        4 1

Audit of NJDOE’s Compliance with                                                                        Final Report
Public School Choice and SES Provisions                                                                 ED-OIG A02-F0006
                                       Attachment 1





             incl uded. The monitoring tool is posted on the                              >lJDOE    Wcb     site     at
             ",,,""..nj. go vIn jdedltitic I/ac COUll ta b!litY/moll ilQring lOO1.pd f.

             Performance Report: Districts arc also responsible for completing the ann ual Tille J
             Performance Report. School choice and srs data are submitted by the districts.
             Additionally, districts are required to complete the annual school choice and SES survey.
             Thi. data is analyzed to determine the level cf usage for both school choice and SES.
             Bas::d upo n thi, analysis. IlXhnical assistance and guidance is provided to di,tricts thaI
             have low usage.


             FIND/NO 2:
             .\')DO£ Did r-,'Ol PrOl'ide Sufficien t In/ormation for LEAs                    10    Make Ihe A j'P
             De/ermina rions before Ihe Beginning oflhe l OC4-1005 School Year

             Recommel/Jlllion:
             1.1  Require N)DOE /() implemclII an adequale prOCeH 10 lIIake                         a~'{Ziiable    Stall
                  assessment results in an wlJerSlandab/r and Imiformfomml.

             ~' JDO£ R~spon~c:
             The :--I1OOE notified districts of their AYP results and yearly status of their S<.:hools for
             the 2005-2006 school year on July 29, 2005 . On August 10. 2005. the ~1OO E publicly
             ann~unced this information. The press release was posted on the :-..uDOE Web site at
             W\-\v. .state.nj.usfn jdcdnews 2005.08 10aymcpon hIm.


             All of the AYP daul are al ailable 10 the NJDO E field stalT Ilho provide guidance to the
             districts and schools. Additionally, the Title 1 office has established an e-mail help
             account to assist districts and schools with questions and clarifications.

             Sec Attachment C for the ;\JooE Web posting of the AYP results and other single
             accountability infonnation. which is base\l upon the 20t)5 statc assessment data and
             applied to the 2005-2006 school year.


             FINDING] :
             XJDOE Did NOI Have an Adequwe Process 10 Timely .11011l10r Approw:d SES Providers

             RCCOIIJIIU!II dOliOIl :
             3_1     Require .I.,IJDOE /0 imp/emem procedwes to nmely plrform mOllilOrillg aClil'ilies
                     of appro\'el/ SES prOViders.

             ;\JDOE Rcmonsc:
             Th~ ~JD O E  has monitored SES provider pcrformllI1ce lia surveys submitted by distrim.
             To establish a more timely. efficient process, and additional capability for the NJDOE to
             capture and a/lalyze data. the district survey process for the 2004-2005 project period for
             sch~ l choice and SES is being revamped. The data will be collected a~ parI of the Title I




                                                                 5 3

Audit of NJDOE’s Compliance with                                                           Final Report
Public School Choice and SES Provisions                                                    ED-OIG A02-F0006
                                       Attachment 1





            Consolidated Sate Pcrfonnance Report process. The pcrfonnance report will be
            su.bmil1ed u.si ng the EWEG system. In a(ldition. the SES providers wi!! transilion to an
            on-line self-evaluation fOT the 2004-2005 project period. Thi. survey wi!! be due in
            Detober 2005.

            Anachment D provides ;':cw Jersey's monitoring process for approved SES providers for
            the 2003-2004 project period. As part of this monitoring process. on-site visits to "at­
            risk" SE$ providers arc scheduled to begin in October 2005. Additional visits to other
            randomly selected SES providers will also be conducted. The ~JDOE Web posting will
            be updated to reflect the 2()().i-200S monitorin g and reporting requirements.




                                                       64 

